No. 20-319

3111 tbe Oupreme Court of tbe iliniteb &Wet(
COMCAST CORPORATION AND COMCAST CABLE
COMMUNICATIONS MANAGEMENT, LLC, PETITIONERS
U.
VIAMEDIA, INC., RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

BRIEF FOR THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, as a member of the Supreme Court
bar, certify that the document contains 5,515 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 13, 2020.

J
Steffen N. John n
Wilson Sonsini Goodrich & Rosati
Counsel for Amicus Curiae

